APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the United States Court of Appeals for
the Eleventh Circuit (April 28, 2021)............... la
Judgment of the United States Court of
Appeals for the Eleventh Circuit
(May 27, 2021)........................................................ 9a
Order of Dismissal Northern District of Florida
Tallahassee Division (April 14, 2020)............... 10a
Judgment of the District' Court for the
Northern District of Florida Tallahassee
Division (April 15, 2020)..................................... 14a

Other Documents
Second Amended Complaint for Prospective
Injunctive and Declaratory Relief Against
State Officials in Their Official Capacities
(December 31, 2019)......................................

15a

App.la
OPINION OF THE UNITED STATES COURT
OF APPEALS FOR THE ELEVENTH CIRCUIT
(APRIL 28, 2021)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
CHRISTOPHER CHESTNUT,
Plaintiff-Appellant,
v.
CHARLES CANADY, Justice,
. RICKY POLSTON, Justice, JORGE LABARGA,
Justice, C. ALAN LAWSON, Justice,
BARBARA LAGOA, Justice, ET AL.,
Defendants-Appellees.
No. 20-12000
D.C. Docket No. 4:19-cv-00271-RH-MJF
Appeal from the United States District Court
for the Northern District of Florida
Before: JILL PRYOR, GRANT and
ANDERSON, Circuit Judges.
PER CURIAM:
Christopher Chestnut, proceeding pro se, appeals
the dismissal of his 42 U.S.'C. § 1983 action against
several current and former Florida Supreme Court
Justices and the Clerk of the Florida Supreme Court.

App.2a

On appeal, Chestnut argues that the district court
erred in dismissing his complaint under the RookerFeldmanX doctrine and that it abused its discretion
in alternatively dismissing his complaint under the
Younger2 abstention doctrine. We agree that RookerFeldman does not apply to this case. But we conclude
that the district court did not abuse its discretion
when it dismissed the complaint under the Younger
abstention doctrine; thus, we affirm.3
I.

Background

This case arises out Chestnut’s permanent disbar­
ment from the Florida Bar. Following three findings
of probable cause by grievance committees, the Florida
Bar filed three complaints against Chestnut in the
Florida Supreme Court (“FSC”). The FSC appointed
referees to conduct evidentiary hearings in the cases.
Those referees found Chestnut guilty of violating the
disciplinary rules of the Florida Bar in nine of the 11
matters. The FSC approved the referees’ findings of
fact and recommendations as to guilt and ordered
that Chestnut be disbarred on May 3, 2019. Chestnut
filed a motion for rehearing on May 20, 2019, which
was denied on August 2, 2019.
While these three original disciplinary complaints
were pending before the FSC, the Florida Bar filed a
1 Rooker v. Fidelity Trust Co., 263 U.S. 413 (1923); D.C. Court of
Appeals v. Feldman, 460 U.S. 462 (1983).
2 Younger v. Harris, 401 U.S. 37 (1971).
3 Appellees also argue that Chestnut’s suit is barred by Eleventh
Amendment and judicial immunity. Because we decide the case
on Younger abstention grounds, we do not address this argu­
ment.

App.3a

fourth complaint against Chestnut, based on new
probable cause findings from grievance committees.
As with the other complaints, the FSC appointed a
referee who found Chestnut violated Florida Bar rules
in three of four cases. In response to this finding,
the FSC entered an order permanently disbarring
Chestnut on August 22, 2019. Chestnut filed a motion
for rehearing, which was denied on November 18, 2019.
Before he was disbarred but while disciplinary
complaints against him were pending, on June 4,
2019, Chestnut filed in the United States District
Court for Northern District of Florida the instant
§ 1983 action against the Justices and Clerk of the
FSC. Following two amendments, the operative com­
plaint was filed on January 31, 2020. In that com­
plaint, Chestnut alleged the Justices and the Clerk
violated his due process rights in disbarring him. He
requested that the court void the orders to disbar
him and enjoin “the Justices on the Supreme Court
of Florida from enforcing the sanction of disbarment
and permanent disbarment.” Doc. 13 at 46.4
The Justices filed a motion to dismiss Chestnut’s
second amended complaint for lack of subject matter
jurisdiction and failure to state a claim. They argued,
among other things, that they were protected by
Eleventh Amendment and judicial immunity. They
also argued that the district court should decline to
consider the claim under the Rooker-Feldman doctrine,
which prevents district courts from hearing “cases
brought by state-court losers complaining of injuries
caused by state-court judgments rendered before the
district court proceedings commenced.” Exxon Mobil
4 “Doc.” numbers refer to the district court’s docket entries.

App.4a

Corp. u. Saudi Basic Indus. Corp., 544 U.S. 280, 284
(2005). Ultimately, the district court granted the motion
to dismiss on the ground that the suit was barred by
Rooker-Feldman. The district court held in the alter­
ative that, to the extent that Rooker-Feldman was
inapplicable, the suit would be barred by the Younger
abste ntion- doctrine.
This is Chestnut’s appeal.
II. Standard of Review
We review de novo dismissals for lack of subject
matter jurisdiction pursuant to Rooker-Feldman.
Nicholson v. Shafe, 558 F.3d 1266, 1270 (11th Cir.
2009). We review the district court’s decision to apply
Younger abstention for an abuse of discretion. 31 Foster
Children v. Bush, 329 F.3d 1255, 1274 (11th Cir. 2003).
A district court abuses its discretion when it makes an
error of law. United States v. Pruitt, 174 F.3d 1215,
1219 (11th Cir. 1999).
III. Discussion
On appeal, Chestnut argues that the district court
erred in ruling that this case was barred by the RookerFeldman doctrine because the disbarment matter was
ongoing when he filed this § 1983 suit. He also argues
that the district court abused its discretion when it
ruled in the alternative that the case should be dis­
missed under the Younger abstention doctrine. We
address each of these questions in turn.
A. Chestnut’s Suit Is Not Barred by the
Rooker-Feldman Doctrine.
The Rooker-Feldman doctrine precludes a federal
court, other than the Supreme Court, from exercising

App.5a

jurisdiction over a claim brought by an unsuccessful
party in a state court case. See Alvarez v. Attorney Gen.
for Fla., 679 F.3d 1257, 1262-63 (11th Cir. 2012).
The Rooker-Feldman doctrine only applies when the
state court proceedings have ended prior to the dis­
trict court proceeding. Nicholson, 558 F.3d at 1278.
In determining whether the Rooker-Feldman doctrine
applies, we look to when the initial complaint is filed
in federal court, rather than the date of any amended
complaints. Lozman v. City of Riviera Beach, Fla., 713
F.3d 1066, 1072 n.3 (11th Cir. 2013). State proceedings
have not ended if an appeal from the state court
judgment is pending at the time that the plaintiff
commences the federal court action. Nicholson, at
1278-79.
Chestnut originally filed this case on June 4,
2019. At that time, his motion for rehearing on his
initial disbarment and the complaints against him
that led to his permanent disbarment were pending
before the FSC. Although Chestnut filed an amended
complaint after his motions for rehearing were denied,
his state court proceedings had not ended when he
filed his initial complaint. Thus, the Rooker-Feldman
doctrine does not apply here; Chestnut was not a
“state-court loser[ ]” when his case was still pending
in state court. Exxon Mobil, 544 U.S. at 284.
B. The District Court Did Not Abuse Its
Discretion in Dismissing Chestnut’s
Complaint Under the Younger Abstention
Doctrine.
After determining that Chestnut’s case was barred
by the Rooker-Feldman doctrine, the district court
alternatively held that “if Rooker-Feldman is deemed

App.6a

inapplicable here on the ground that the Florida
Supreme Court proceeding was still pending when
this federal action was filed,” the case would still be
barred by the Younger abstention doctrine. Doc. 21
at 3. On appeal, Chestnut argues that the district
court abused its discretion by determining that Younger
abstention applies here because (1) Younger abstention
is inappropriate when the district court has jurisdic­
tion under 28 U.S.C. § 1343, which gives district
courts original jurisdiction over certain civil rights
actions, and (2) the bad faith exception to Younger
abstention applies in this case. We disagree.
Younger abstention applies where (1) the state
judicial proceedings are ongoing, (2) those proceedings
implicate important state interests, and (3) the state
proceedings provide an adequate opportunity to litigate
the plaintiffs federal constitutional claims. 31 Foster
Children, 329 F.3d at 1274. As with the Rooker-Feldman doctrine, we look to the date the initial complaint
was filed to determine if a case is ongoing. Liedel v.
Juvenile Court of Madison Cty., Ala., 891 F.2d 1542,
1546 n.6 (11th Cir. 1990). The plaintiff has the burden
to show that the state proceeding will not provide
him an adequate remedy for his federal claim. 31
Foster Children, 329 F.3d at 1279. Generally, in the
absence of authority to the contrary, a federal court
should assume that a state’s procedures will afford
the plaintiff an adequate remedy. Id.
The district court made no error of law in ruling
. that Younger abstention applied to Chestnut’s § 1983
action. State judicial proceedings against Chestnut
were ongoing when he filed his initial complaint in June
2019. Supreme Court precedent instructs that state
disciplinary proceedings against attorneys implicate

App.7a

important state interests for the purposes of Younger
abstention. Middlesex Cnty. Ethics Comm. v. Garden
State Bar Assn., 457 U.S. 423, 434-35 (1982). And al­
though Chestnut provides a history of racial discrim­
ination in southern state courts in his appellate
brief, he does not point to any state procedures or
other authorities that indicate he did not have an
opportunity to raise these claims in his state pro­
ceeding. Indeed, he made some of the same due
process arguments before the FSC.
Chestnut nonetheless argues that Younger
abstention should not apply here because the district
court had original jurisdiction over the matter under
28 U.S.C. § 1343. This is incorrect. Younger and its
progeny are only implicated after the district court
has concluded it has jurisdiction. It is the nature of the
state proceedings, not the district court’s jurisdiction,
that a court analyzes when determining if it should
abstain under Younger. See id. at 431-32. As such,
the statute that granted the district court jurisdic­
tion of this case does not alter our Younger analysis.
Chestnut also argues that this case falls under
the bad faith exception to Younger. Here, too, we
disagree. A proceeding is initiated in bad faith if it is
brought without a reasonable expectation of obtaining
a valid conviction. Redner v. Citrus County, Fla., 919
F.2d 646, 650 (11th Cir. 1990). The bad faith exception
requires a substantial allegation that shows actual
bad faith. See Younger, 401 U.S. at 48. Chestnut has
provided us with no evidence that the disciplinary
proceedings against him were brought without a rea­
sonable expectation of obtaining a finding of guilt.
Based on the record before us, the Florida Bar appeared
to have ample evidence that Chestnut had engaged

App.8a

in alleged misconduct before filing the complaint
with the FSC. Therefore, the bad faith exception does
not apply.
Chestnut’s action meets the three requirements
for Younger abstention: At the time of filing, (1) there
was an ongoing state proceeding that (2) implicated
an important state interest and (3) those proceedings
provided adequate opportunity for Chestnut to be
heard. Chestnut’s arguments about jurisdiction and
bad faith are unavailing. As such, we cannot say that
the district court abused its discretion in abstaining
from the case.
IV. Conclusion
For the foregoing reasons, the district court’s order
of dismissal based on Younger abstention is affirmed.
AFFIRMED.

App.9a
JUDGMENT OF THE UNITED STATES COURT
OF APPEALS FOR THE ELEVENTH CIRCUIT
(MAY 27, 2021)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
CHRISTOPHER CHESTNUT,
Plaintiff-Appellant,
v. '
CHARLES CANADY, Justice,
RICKY POLSTON, Justice, JORGE LABARGA,
Justice, C. ALAN LAWSON, Justice,
BARBARA LAGOA, Justice, ET AL.,
Defendants-Appellees.
No. 20-12000
District Court Docket No. 4:19-cv-00271-RH-MJF
Appeal from the United States District Court
for the Northern District of Florida
It is hereby ordered, adjudged, and decreed that
the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: April 28, 2021
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

App.lOa
ORDER OF DISMISSAL
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
(APRIL 14, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
CHRISTOPHER CHESTNUT,
Plaintiff\
v.
JOHN TOMASINO, ET AL.,
Defendants.
Case No. 4:19-cv-271-RH-MJF
. Before: Robert L. HINKLE,
United States District Judge
The Florida Supreme Court disbarred the plaintiff
Christopher Chestnut for alleged misconduct. He
asserts the action was unconstitutional both because he
was not afforded procedural due process and because
a white attorney would not have been disbarred in
the same circumstances. Mr. Chestnut is African
American.
Mr. Chestnut raised in the Florida Supreme Court
the same due-process and racial-discrimination argu-

App.lla

merits he asserts here. His attempt to relitigate the
issues here runs headlong into the Rooker-Feldman
doctrine.
The United States Supreme Court has put it
this way: federal district courts cannot hear “cases
brought by state-court losers complaining of injuries
' caused by state-court judgments rendered.before the
district court proceedings commenced and inviting
district court review and rejection of those judgments.”
Exxon Mobil Corp. v.- Saudi Basic Indus. Corp., 544
U.S. 280, 284 (2005). See also Rooker v. Fidelity
Trust Co., 263 U.S. 413 (1923); D.C. Court of Appeals
v:Feldman, 460 U.S. 462 (1983).
Mr. Chestnut is a state-court loser. The Florida
Supreme Court ruled against him. As the Eleventh
Circuit has recognized time and again, this was a
judicial decision fully subject to the Rooker-Feldman
doctrine. See, e.g., Doe v. Florida Bar, 630 F.3d 1336,
1341 (11th Cir. 2011) (affirming the district court’s
dismissal of as-applied challenges to the Florida Bar’s
certification rules); Berman v. Fla. Bd. of Bar Examrs,
794 F.2d 1529 (11th Cir. 1986) (applying Feldman
■ to affirm the district court’s dismissal of an action
challenging denial of admission to the Florida Bar);
Uberoi v. Labarga, 769 F. App’x 692 (11th Cir. 2019)
(same). And Mr. Chestnut is complaining of an injury
—his continuing exclusion from the Florida Bar—
caused by the state-court judgment.
. This claim is dead center of the Rooker-Feldman
doctrine.
In reaching this conclusion, I have not overlooked
the chronology. The Florida Supreme Court entered
the order disbarring Mr. Chestnut on May 3, 2019.

App.l2a

Mr. Chestnut moved for rehearing on May 20, 2019.
Mr. Chestnut filed the original complaint in this fed­
eral action on June 14, 2019, plainly “inviting district
court review and rejection” of the Florida Supreme
Court’s order disbarring him. Exxon Mobil, 544 U.S.
at 284. The Florida Supreme Court made the dis. barment permanent by order entered on August 22,
2019. Mr. Chestnut submitted the second amended
complaint in this federal action—the pleading now
before the court—on December 31, 2019.
The Eleventh Circuit has said that RookerFeldman applies only when the federal action is filed
after state-court proceedings have ended. See Nicholson
v.Shafe, 558 F.3d 1266, 1275 (11th Cir. 2009). If, by
this, the court means Rooker-Feldman does not apply
when a federal proceeding is initiated after the state
court of last resort has entered judgment but while a
motion for rehearing is pending, one might well
question the result. One might well conclude that a
party who comes to federal court only after suffering
an adverse ruling in the state court of last resort is a
“state-court ioser[ ] complaining of injuries caused by
[the] state-court judgment[ ].” Exxon Mobil, 544 U.S. at
284. Nicholson involved a pending appeal to a court
, that had not ruled at all on the matter at issue;
Nicholson did not involve a motion for rehearing in a
court that had already ruled.
In any event, if Rooker-Feldman is deemed
inapplicable here on the ground that the Florida
Supreme Court proceeding was still pending when
this federal action was filed, the result would not
change. In Middlesex County Ethics Comm. v. Garden
State Bar Assn, 457 U.S. 423 (1982), the Supreme
Court held that a federal action seeking injunctive

App.l3a

relief from ongoing bar disciplinary proceedings was
barred by the doctrine of Younger v. Harris, 401 U.S.
37 (1971). Actions challenging bar disciplinary pro­
ceedings that have been dismissed in this court on
the ground that Middlesex is controlling, with the
dismissals affirmed by the Eleventh Circuit, include
Stoddard v. Fla. Bd. of Bar Examrs, 509 F. Supp. 2d
1117, 1118-19 (N.D. Fla. 2006), aff’d, 229 F. App’x
911, 912 (11th Cir. 2007), and Lawrence v. Schwiep,
No. 4:05cvl4-RH, 2005 WL 2491564 (N.D. Fla. Oct.
7, 2005), aff’d sub nom. Lawrence v. Rigsby, 196 F.
App’x 858, 858-59 (11th Cir. 2006).
Whether viewed as a challenge to a state-court
proceeding that was ongoing when this federal action
was filed—a challenge barred by Younger—or as a
challenge to a state-court proceeding that had ended
when this federal action was filed—a challenge barred
by Rooker-Feldman—the result is the same. This
action must be dismissed.
For these reasons,
IT IS ORDERED:
1. The motion to dismiss, ECF No. 16, is granted.
2. The clerk must enter judgment stating, “This
case was resolved on a motion to dismiss. The plaintiff
Christopher Chestnut’s claims against the defendants,
the Clerk of Court and Justices of the Florida Supreme
. Court in their official capacities, are dismissed.”
3. The clerk,must close the file.
SO ORDERED on April 14, 2020.
/s/ Robert L. Hinkle
United States District Judge

App.l4a
JUDGMENT OF THE DISTRICT COURT FOR
THE NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
(APRIL 15, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
CHRISTOPHER CHESTNUT
v.
JOHN TOMASINO, ET AL
Case No. 4:19-cv-00271-RH-MJF
This case was resolved on a motion to dismiss.
The plaintiff Christopher Chestnut’s claims against
the defendants, the Clerk of Court and Justices of
the Florida Supreme Court in their official capacities,
are dismissed.
Jessica J. Lvublanovits
Clerk of Court
Isl Betsy Breeden
Deputy Clerk
Date: April 15, 2020

App.l5a

SECOND AMENDED COMPLAINT
FOR PROSPECTIVE INJUNCTIVE AND
DECLARATORY RELIEF AGAINST STATE
OFFICIALS IN THEIR OFFICIAL CAPACITIES
(DECEMBER 31, 2019)
IN THE; UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
CHRISTOPHER CHESTNUT,
Plaintiff,
v.
JUSTICE CHARLES CANADY, JUSTICE
RICKY POLSTON, JUSTICE JORGE LABARGA,
JUSTICE C. ALAN LAWSON, JUSTICE BARBARA
LAGOA, JUSTICE ROBERT LUCK, and JUSTICE
,
CARLOS MUNIZ; in Their Official Capacities as
Justices for the Florida Supreme Court of Florida;
JOHN A. TOMASINO, in His Official Capacity as
Clerk for the Supreme Court of Florida,
Defendants.
No. 4-19-CV-271-RH-MJF
Complaint for Prospective Injunctive and
Declaratory Relief Against State Officials in
Their Official Capacities1
1 There is an exception to the law that permits a private plaintiff
to bring a suit against a state office for prospective injunctive

App:16a

COMES NOW, Plaintiff, CHRISTOPHER
CHESTNUT, pro se, and hereby files this claim for
declaratory and prospective injunctive relief pursuant
to 28 U.S.C. § 1343(a)(3), seeking immediate and
emergency declaratory and injunctive relief to nullify
and enjoin the enforcement of orders to disbar and
permanently disbar Plaintiff issued by the Supreme
Court of Florida in violation of due process, and
offers in support thereof as follows:
I. Introduction
A.

Nature of the Case

1. This is a lawsuit for equitable relief pursuant
to Section 1 of the Civil Rights Acts as codified by 42
U. S. C. § 1983 against the individual Justices of the
Supreme Court of Florida in their official capacities
and the Clerk of the Supreme Court of Florida in his
official capacity.2 The Justices acted individually and
collectively as state actors to deprive Plaintiff Chestnut
relief. See generally, Ex Parte Young, 209 I.S. 123 (1908); see
also Stevens v. Gay, 864 F.2d' 113,115 (11th Cir. 1989) (“The
Eleventh Amendment does not prevent a plaintiff from suing
state officials in their official capacity for prospective injunctive
relief and costs associated with that relief.”). However, the
Eleventh Amendment bar against suing the state itself “applies
regardless of whether the plaintiff seeks money damages or
prospective injunctive relief.” Stevens, 864 F.2d at 115; Ram,ey
v. Georgia, Lexis 2010 U.S. Lexis 20097 n.l (M.D. Ga. 2010).
. 2 See Kentucky v. Graham, 473 U.S. 159, 167 n. 14 (1985) (Plaintiff
may seek injunctive relief under § 1983 against a state official
in his or her official capacity, because official capacity actions
for perspective relief are not treated as sanctions against a
state.).

App.l7a

of his Fifth and Fourteenth Amendment Constitutional
rights. Specifically, the Justices entered an order to
disbar and subsequently permanently disbar Plaintiff
Chestnut without a requisite hearing, order to show
cause or opportunity to be heard otherwise in
deprivation of his due process rights. Plaintiff Chestnut
- seeks an immediate order for prospective declaratory
and injunctive relief by this Federal District Court
declaring the illegal orders to disbar and permanently
disbar are void and to enjoin the Supreme Court of
Florida from imposing the sanctions as ordered on
May 3, 2019 and August 22, 2019 respectively.3
2. Plaintiff acknowledges that the Federal District
Court does not have jurisdiction for substantive
appellate review of a final state court order from the
highest state court; and, further acknowledges the
considerable precedent of Federal District Court
abstention from intervening in state court orders for
disbarment. However, the case sub judice is highly
distinguishable in fact and law from the precedent.
This complaint invokes Federal District Court original
jurisdiction under 28 U.S.C. § 1343, which codifies
immediate Federal District Court jurisdiction and
intervention when a member of a protected class has
* been deprived of liberty or property by state action in
violation of due process and equal protection law.4
3 See Gresham Park v. Howell, 652 F.2d 1227, 123 (5th Cir. 1981)
(“where a party asks a federal court to declare a state court
judgment null and void, we should consider this as praying for
any injunctive enjoining its enforcement.).
4 The legislative intent of the Civil Rights Act of 1871 was to
provide for Federal Court intervention for blacks who were
being deprived of liberty and property by the state courts in the
southern states, including Florida. See Zeigler, Donald H., A

App.l8a

The Supreme Court of Florida orders disbarring
Plaintiff (a black male attorney), sub judice, involve
selective enforcement of bar disciplinary sanctions,
promulgating unequal application and misapplication
of law/rules, the overt obstruction of discovery and
evidentiary safe guards, and repeated due process
. violations by state court judges suborning unfair
tribunals all for the specific purpose of discriminating
against him. The orders further impose the harshest
sanctions (permanent disbarment) for alleged mis­
conduct where similarly situated white attorneys
engaging in the same conduct were not prosecuted or
not sanctioned at all; and, subjugate Plaintiff to
permanent disbarment upon deprivation of an evi­
dentiary hearing to show cause why disbarment
should not be the imposed sanction, when similarly
situatpd white attorneys where at a minimum
afforded a show cause order prior to disbarment.
Moreover, consistent with Fed. R. Civ. P. § 11(b)
Plaintiff seeks the extension and application of the
holding in Rhoades v. Penfold, 694 F.2d 1043 (5th
Cir. 1983) to this case. In Rhoades, where the 5th
Circuit affirmed Federal District Court declaratory
and injunctive relief vacating a final state court order
terminating a mother’s parental rights after the
appellate court found her due process and equal pro­
tection rights were violated in the state court
termination process.5

Reassessment of the Younger Doctrine in Light of the Legislative
History of Reconstruction, 87 Duke LJ 987, 1039 (1983).
5 As a decision of the Old Fifth Circuit, Rhoades remains
persuasive in the Eleventh Circuit. See Bonner v. City of
Pritchard, 661 F.2d 1206, 1207 (11th Circ. 1981) (enbanc).

App.l9a

A. 1. 42 U.S.C. § 1983 Due Process Violation
& Prospective Injunction Defined
3. The Fourteenth Amendment secures a right
in an individual citizen to be free from state depri­
vations of property without due process of law.6
4. Section 1 of the Civil Rights Act as codified by
42 U.S.C. § 1983 provides a private right of action for
equitable relief against persons acting under the
color of state law, statute, ordinance, regulation, or
custom or who deprived a citizen of any rights,
privileges, or immunities secured by the U.S. Consti­
tution and federal laws.?
5. To prevail in a § 1983 claim, a plaintiff must
prove: (1) a deprivation of a right secured by the Con­
stitution and the laws of the United States; (2) that
the deprivation was under color of state of law
constituting state action.8
6. A state may act through different agencies
including its judiciary. 9 Any act taken by a state
court judge or justice acting in his or her official
capacity that abridges the rights guaranteed by the
Fourteenth Amendment will be considered state
action. 10

, 6 United States v. Stanley, 109 U.S. 3, 18 (1883).
? See, Parratt v, Taylor, 451 U.S. 527, 534-5 (1981) (Negligent
deprivation of civil rights is actional under § 1983.).
8 Id.
9 Flagg Bros, Inc. v. Brooks, 473 U.S. 149,156 (1978).
.10/d.

App.20a

7. When a state court justice acting individually
or collectively engages in state action to take the
property or liberty interest of a plaintiff without the
due process of law, that plaintiff may seek injunctive
relief under § 1983 against the state official(s) in his
or her official capacities, under prospective injunctive
relief. U
8. Furthermore, neither the defendant state actors
nor the state agency judiciary enjoys Eleventh
Amendment immunity in a claim for injunctive relief
for reinstatement of employment, pursuant to the Ex
' parte Young exception.!2
A. 2. § 1983 Constitutional Rights Deprived
by State Action
9. Plaintiff Chestnut had a right under the Fifth
and Fourteenth Amendment to due process when the
state agency aimed to deprive him of his property
and liberty interest in employment via his license to
practice law in Florida.!3 A license to practice law is

11 See Kentucky v. Graham, 473-U.S. 149, 167 n. 14 (1985).
12 See Lane u. Cent. Ala. Cmnty College, 772 F.3d 1349, 1350
(11th Cir. Ala., 2014); see also Ex parte Young, 2019, U.S. 123,
128 (1908) (A suite against individuals for the purpose of
preventing them as officers of a state from enforcing unconsti­
tutional enactment to the injury of the rights of the plaintiff, is
not a suit against the state within the meaning of the Eleventh
Amendment.).
13 A state cannot exclude a person from the practice of law for
from any other occupation in a manner or for reasons that
contravene Due Process or Equal Protection Clause of the
Fourteenth Amendment. Schware u. Board of Bar Examiners of
New Mexico, 353 U.S. 232,237 (1957).

App.21a

considered real property. 14 The Supreme Court of
Florida systemically violated Plaintiff Chestnut’s due
process rights when it entered orders to disbar and
permanently disbar him without affording him an
opportunity to be heard on the issue of disbarment or
permanent disbarment. 15 Furthermore, the Supreme
Court of Florida order was required to declare a
“valid” reason for issuing the harshest sanction of
disbarment and permanent disbarment and none
was stated. 16 The orders signed by the individual
Justices of the Supreme Court of Florida caused
Plaintiff Chestnut to suffer an actual deprivation of
this Fifth and Fourteenth Amendment constitutional
^ rights. I?

14 Bradley v. Fisher, 80 U.S. 335, 355 (1871) (“to deprive one of
an office of this character would often be to decree poverty to
himself and destitution to his family.”).
15 Id. at 354.
16 Bradley at 354; see also Ex parte Garlard, 4 Wall. 3333,379
(1867) (We need not enter into a'discussion whether the prac­
tice of law is a “right” or “privilege”. Regardless of how the
State’s grant of permission to engage in this occupation is
characterized, it is sufficient to say that a person cannot be
prevented from practicing except for valid reasons. Certainly,
the practice of law is not a matter of the State’s grace.”).
„ I? See Pulliam u. Allen, 466 U.S. 522, 538 (1984) (An injunctive
action against a judge is not prohibited when the suit aims at
restraining the judge from depriving persons of their federal
rights.).

App.22a

B.

Jurisdiction and Venue
The Federal Court has Original Jurisdiction.

10. The lawsuit is a private right of action, pur­
suant 42 U.S.C. § 1983. The Federal District Court
has original jurisdiction over this claim, pursuant to
28 U.S.C. § 1343(3) & (4).18
11. Venue is proper in the Northern District of
Florida because the alleged primary acts and events
taken by the Supreme Court of Florida occurred in
Tallahassee, Leon County, Florida; Plaintiff, Chestnut
has a residence in Gainesville, Alachua County,
Florida; and, the Supreme Court of Florida and its
Clerk sit in Tallahassee, Leon County, Florida, all of
which are within the jurisdiction of the United States
District Court in and for the Northern District of
Florida. 19
12. Plaintiff has no pending state claims and
no adequate remedies under Florida law; thus, the
Younger abstention2!) is not permitted to preclude
Federal District Court intervention.21

18 See also Civil Rights Act of 1871, ch. 22 § 1, 17 Stat. 13, codified
at 42 U.S.C. § 1983.
1.9 28 U.S.C. § 1391(b).
20 Younger v. Harris, 401 U.S. 37 (1971) (holding that federal
courts are required to abstain from taking jurisdiction over fed­
eral constitutional claims that involve or call into question
ongoing state proceedings.). See also Ankenbrandt u. Richards,
504 U.S. 689, 705 (1992) (“Absent any pending proceeding in
state tribunals, therefore, application by the lower courts of
Younger abstention was clearly erroneous.”).
21 See, Rhoades i>. Penfold, 694 F.2d 1043,1047 (5th Cir. 1983).

App.23a

13. Prior to filing this action Plaintiff Chestnut
filed a motion for written opinion, clarification, and
rehearing pursuant to Fla. App. P. § 9.330, for both
orders to disbar, neither of which was heard at an
initial hearing, notwithstanding the title “Motion for
, Rehearing”.22 See attached Exhibit. B, Respondent
Motion for Reconsideration. The Supreme Court of
Florida’s remedial action is discretionary, and both
motions were denied.23
14. Alternatively, because this lawsuit involves
a black attorney complaining of deprivation of due
process by state court actors under § 1983, the Federal
District Court may immediately intervene notwith­
standing the Rooker-Feldman Doctrine.
Rooker-Feldman Doctrine does not prohibit
this Court from intervening, and this court
should intervene.
15. The Rooker-Feldman Doctrine does not apply
sub judice, and this court should intervene.24

22 See Art. 1, § 9, Fla. Const., all proceedings affecting life, liberty,
or property must be conducted according to due process. See
also, Tibbets v. Olson, 108 So. 679 (1926) (holding the essence of
due process is that fair notice and a reasonable opportunity to
be heard must be giving to interested parties before judgment is
rendered.).
23 Vill of DePue v. Exxon Mobil Corp., 537 F.3d 775, 782 (11th
Gir. 2008) (“The mere fact that a case could be heard in state
court is insufficient to justify the Younger abstention.”).
24 See Patsy u. Board of Regents, 457 U.S. 496 (1982) (The
Court relied upon a careful review by the Court of the Congres­
sional debates of the Civil Rights Act of 1871 as authority for
the legislative intent of § 1983 and necessity of federal court
intervention when dealing with blacks in the South, because

App.24a

16. Feldman was published in 1963 when Writ
of Certiorari review by the U. S. Supreme Court was
mandatory25 However, The Supreme Court Selections
Action of 1988 eliminated mandatory U.S. Supreme
Court review of a final order from the highest court
of a state and made Writ of Certiorari under 28
U.S.C. § 1257, discretionary.26
17. The U. S. Supreme Court rejects most Writs
of Certiorari and typically only entertain writs that
involve substantial impact on state or federal law.
For instance, in 2017, the U.S. Supreme Court heard
only 2.8% of Writs of Certiorari filed.27
18. Consequently, Rooker Feldman should not
bar Plaintiff Chestnut’s cause action, because the
U.S. . Supreme Court is no longer obligated to hear
this Writ of Certiorari, as it was under Feldman, and
there is a substantial likelihood that his Writ of Cer. tiorari will not be heard by the U.S. Supreme Court,

blacks were not receiving justice or equitable application of
laws in enforcement or before the court post-reconstruction,
absent federal court intervention.).
25 See Rooker v. Fid. Trust. Co., 44 S. Ct. 149, 150 (1923) (only
the Supreme Court can entertain jurisdiction of a proceeding to
reverse or modify a state court judgment.); see also District of
Columbia Court of Appeals v. Feldman, 460 U. S. 462 (1983)
(review, of final orders from the highest court of a state in bar
disciplinary proceedings is relegated to the United State
Supreme Court only, pursuant to 28 U.S.C. § 1257.).
26 The'Supreme Court Selections Act of 1988 (Pub. L 100-352
Stat 662, enacted 6/27/88, codified at 28 U.S.C. § 1257).
27 Success Rate of a Petition for Writ of Certiorari to the Supreme
Court. The Supreme Court Press, www.supremecourtpress.com/
chanceofsucess.html. 2018.

App.25a

leaving no guaranteed opportunity for remedy to an
unconstitutional taking in violation of due process.
This Court May Take into Consideration
Rule 11 and The Reconstruction Congress’
Legislative Intent When Considering
Whether to Exercise Subject Matter Jurisdic­
tion. '
19. The debate and commentary by the Recon­
struction Congress (1865-1871) in drafting and
enacting the Civil Rights Act of 1871 codified by 42
U.S.C.' § 1983, unequivocally solidifies the Congres­
sional intent directing the Federal District Court’s
jurisdiction over § 1983 claims; including presumptive
injunctive relief claims against official capacity state
action against a protected class member violating
due process.
20. Additionally, Plaintiff Chestnut relies on Rule
11(b), Fed. R. Civ. P.28 as a basis for arguing that this
Court take subject matter jurisdiction over his claim.
21. Rule 11(b) provides this Court express author­
ity to reverse application of the existing RookerFeldman doctrine. Rooker-Feldman became obsolete
in 1988 when U. S. Supreme Court review of § 1257
writs became discretionary. The doctrine has not
been modified to cure the post 1988 procedural void,
and thus it inflicts irreparable harm to a protected
class member like Plaintiff Chestnut who will be
robbed of an opportunity to be heard by a higher
28 Rule 11(b), Fed. R. Civ. P. provides the claims defenses and
other legal contentions are warranted by existing law or by a
non-frivolous argument for extending, modifying or reversing
existing law or for establishing new law.

App.26a

coprt on his due process claims concerning his disci­
plinary proceedings, where he has been deprived of due
process and a fair and impartial tribunal culminating
in permanent disbarment. The Reconstruction Con­
gress’ legislative intent in enacting Section 1 of the
Civil Rights Act of 1871, later codified by 42 U.S.C.
§ 1983 and 28 U.S.C. § 1343(3) & (4), along with the
Fourteenth Amendment supports this Federal District
Court’s exercise of jurisdiction over the prospective
injunctive relief claims, Equal Protection claims, and
§ 1983 claims, sub judice. Additionally, Rule 11(b)
, authorizes Plaintiff to seek this Federal District Court’s
jurisdiction to modify and / or reverse the application
of the Rooker-Feldman Doctrine under these circum­
stances and to extend the application of the court’s
holding in Rhoades where a plaintiff has been denied
due process.29
22. Specifically, Plaintiff alleges when the Justices
to, the highest state court in Florida, the Supreme
Court of Florida, entered a final state court order
revoking the law license from a black attorney without
due process of law in violation of his Fifth and
Fourteenth Amendment, that a black attorney (mem­
ber of a protected class) has no guaranteed remedial
action under § 1257, because the U.S. Supreme Court
has discretionary review over Writs of Certiorari.
Consequently, the only avenue for 'recourse of his
federally guaranteed right is to seek intervention by
the Federal District Court pursuant to 42 U.S.C.
, § 1983 and 28 U.S.C. § 1343 (3) & (4).

29 See Rhoades v. Penfold, 694 F.2d 1043 (5th Cir. 1983).

App.27a

History of Discriminatory Deprivation of
Constitutional Rights to Blacks & NonConfederate Whites Requiring Federal
Court Intervention Authority Conferred by
Reconstruction Congress.
23. The primary reason for Civil Rights Act of
1871 and 42 U.S.C. § 1983 was to address inequity in
the application and enforcement of law, and to cure
the bias especially in the southern states as applied
to formerly held slaves (blacks).
24. The U. S. Supreme Court acknowledges the
legislative intent of 42 U.S.C. § 1983 in Monroe v.
. Pape, 365 U.S. 167, 180 (1961), stating:
“It is abundantly clear that the one reason
the legislation was passed was to afford a
federal right in federal courts because by
reason of prejudice, passion, neglect, intoler­
ances or otherwise, state laws might not be
enforced and the claims of citizens to the
' enjoyment of rights, privileges, and
immunities guaranteed by the Fourteenth
Amendment might be denied by the state
agencies.”30

30 “The Civil Rights Bill is intended to secure these citizens
against injustice that may be done them in the courts of the
States within where they may reside.” See Cong. Glove 39th Cong.
1st Ses.474-475, 604, 1758-59 (remarks of Sen. Trumbull): ■
But why do we legislate upon this subject now? Simply
because we fear and have reason to fear that the
emancipated slaves would not have their rights in
the court of the slave states . . .
Here Justice of the Peace in South Carolina or Georgia.
or a county court or a circuit court, that is called

App.28a

25. After the Civil War, black persons were being
deprived of liberty and property without due process
of law and the deprivations occurred because judges
in civil state court proceedings failed to afford the
procedural fairness required by the U.S. Constitutional
26. Despite the dissimilarities, the nature of the
potential state court problem that the Reconstruction
Congress sought to remedy has not changed in the
past century. Although the state justice system has
not in the last decade manifested the level of racism,
hatred and bigotry that marked the post — Civil War
era, there is no guarantee that the state systems will
not again become the bastion of such ill will.32
27. Also, although there have been significant
improvements in equal protection for the descendants
of slaves in the former southern slave states, including
Florida, there has not been enough in parity for
black attorneys to rely solely on state courts to
enforce and equally protect constitutional rights.
28. Plaintiffs experience sub judice of an inability
to get due process, including but not limited to a fair
and impartial tribunal, at the state court level
underscores the need of intervention by the Federal
upon to execute this law. They appoint their own
marshal, their deputy marshal, or their constable.
and he calls upon the posse comitatus. Neither the
judge, nor the jury, nor the officer as we believe is
willing to execute the law. Id. at 602-3. (emphasis
added).
31 Zeigler, Donald H., A Reassessment of the Younger Doctrine
in Light of the Legislative History of Reconstruction, 87 Duke LJ
987, 1039 (1983).
- 32 id.

App.29a

District Court pursuant to 42 U.S.C, § 1983 and 28
U.S.C. § 1343 (3) & (4) as anticipated by the Recon­
struction Congress in enacting the civil rights law.
Discriminatory Patterns Strikingly Similar
to Reconstruction Era Southern State
Court Practices Warrant Federal District
Intervention in the case sub judice.
29. Indicia of a resurgent chilling climate on
racial intolerance and inclusion may be found in the
following studies on bar disciplinary disparities in
the California Bar Association, racial bias in the
legal profession against blacks in legal writing, and
bias against blacks in the state court systems of
Florida. The disheartening findings are as follows:
a.

The California Bar Association on 11/13/2019
released findings of a study on racial dis­
parities in bar disciplinary actions from
1990-2018, for over 116,000 attorneys
admitted between 1990 and 2009. The find­
ings were that black lawyers were nearly 3
times mor likely to incur a sanction of
suspension than a similarly situated white
attorney colleague (3.2% black .v. .9% for
white) and nearly 4 times more likely to be
disbarred than a similarly situated White
colleague (3.9% black v. 1.0% for white).

b.

A similar racial bias hostile to Blacks in
legal writing was found in a 2014 study by
April N. Reeves; her paper entitled: Written
in Black and White: Exploring Confirmation
Bias in Racialized Perceptions of Writing
Skills, found that similarly situated white
law partners reviewing the identical legal

App.30a

writings with identical errors where the
hypothetical author had the same name for
the white and black supposed junior associate
writer (Thomas Meyer), resulted in an
average score of 3.2/5.0 for Blacks and 4.1/5.0
for whites, the only difference in the writing
was the reviewing partner was advised of
the race of the writer which caused disparity
in the scoring.
c.

The Sarasota Harold-Tribune on 12/12/16
published an article entitled, Florida’s Broken
Sentencing System; Designed for Fairness, it
Fails to Account for Prejudice. This article
was amongst a series of articles by this
newspaper after an intense study on racial
bias in the state courts of Florida, the
authors, John Salman, et. al. found:
i.

“There is little oversight for judges in
Florida, without checks to ensure
equality, bias reigns”;

ii.

“Judges say they are not racist but
centuries of racial tension in America,
lack of cultural understanding and nega­
tive stereotypes cloud their judgment.”

iii.

Cornell Researchers in 2009 found racial
bias from 133 judges presented with
hypothetical cases, resulting in a majority
of the cases discriminately favoring
whites on sentencing with harsher
sentencing on blacks for the same
offense. Additionally, researchers found
sentencing was harsher if the hypo-

App.31a

thetical presented to the judge was
primed with words tied to black culture.
iv.

As of 2016, out of 900 county and circuit
court judges in Florida, 62 were black,
28 were assigned to serious / felony
crimes.

d.

32 out of 64 judicial appointments to Florida’s
five appellate courts were appointed between
2011-2018; not a single appointee was black.

e.

Of the three Florida Supreme Court Justices
appointed in 2019 by Gov. DeSantis, none
were black, and there presently is not an
black on the Supreme Court of Florida for
the first time in nearly 40 years.

f.

Blacks comprise approximately 16.9% (3.5
million) of the Florida population, yet less
than 5% of The Florida Bar. 33

30. Furthermore, Plaintiff, a black attorney in
Florida, has been unable to receive a fair and impartial
tribunal before the Florida Supreme Court or its
appointed Trial Court Referees, in the cases sub
judice. Indicia of his unfair treatment delineated as
follows:
a.

All of the Circuit Court Judges appointed to
referee Plaintiffs Florida Bar Disciplinary
proceedings hailed from the Fifth Judicial
Circuit (no nexus to the Fifth Circuit for
Plaintiff). Of the four Judges, two were
disqualified for improper conduct in violation

33 U.S. Census Bureau, https:www.census.gov/guickfacts/fact/table/
FL/RHI225217#RHI225217.

App.32a

of Judicial Canons and Florida Rules of
Judicial Administration. See attached Exhibit
C & D, Order of Disqualification & Writ of
Prohibition.
b

The Supreme Court of Florida knowingly
allowed and relied upon the Report of
Referee by Judge Jonathan Ohlman34 in
SC17-307 to disbar Plaintiff Chestnut, yet
the Report of Referee was entered after
Judge Ohlman had been technically dis­
qualified pursuant to Fla. R. Jud. Admin.
§ 2.330 and lost jurisdiction. Thus, the Report
of Referee in SC17-307 is null and void.35
Moreover, Plaintiff filed a Writ of Prohibition
to the Supreme Court of Florida regarding
the Judge’s continued activity on the file
after his disqualification and the Supreme
Court of Florida refused to rule on or hear
the writ deferring it to be heard on appeal.
Cf. Sutton v. State, 975 So.2d 1073, 1077
(Fla. 2008) (holding, a formal writ of pro­
hibition in connection with an issue of judi­
cial recusal is immediately reviewable by
certiorari, not by appeal.)36 (emphasis added).
However, the Supreme Court of Florida
never heard the Writ of Prohibition in
SC17-307 because it dismissed Plaintiffs

34 Hon. Jonathan Ohlman, State of Florida, Fifth Judicial Circuit
Court, In and For Marion County.
35 See, ML. Builders, Inc. v Reserve Developers, LLP, 769 So. 2d
1 079, 1082 (Fla.'4th DCA 2000) (A void judgment is a nullity
and may be stricken at any time.).
36 Fla. R. App. P. § 9.030

App.33a

appeal as untimely absent the prerequisite
Order to Show Cause. Plaintiffs subsequent
Motion for Reconsideration raising the due
process violation of dismissing his appeal
absent an Order to Show Cause or a Tenday Notice, was summarily denied.37
c.

Additionally, in SC17-307, the trial court
stopped the trial/ final hearing on day two
of four, before Plaintiff could put on a
meaningful case-in-chief, call witnesses, or
rest his case-in-chief. This prejudice was
compounded by pre-existing rulings by Judge
Ohlman depriving Plaintiff of discovery sub­
poenas for out of state fact and complaining
witnesses who could not be compelled to
trial. The trial was never resumed prior to
Judge Ohlman entering a Report of Referee
finding Plaintiff guilty and recommending
sanction.

d.

In SC16-797due process violations occurred
when the referee, Judge Curtis Neal38 entered
a post-trial order sanctioning Plaintiff
Chestnut by excluding nearly all of his trial
evidence and testimony without affording
him an evidentiary hearing. This order was
in response to a pre-trial motion by The
Florida Bar alleging discovery violations by
Plaintiff. Excluding a party’s evidence is
amongst the harshest of sanctions for alleged
discovery violations and requires a court to

37 Fla. R. App. P. § 9.410
38 Hon. Curtis J.Neal, State of Florida, Fifth Judicial Circuit,
In and For Hernando County.

App.34a

conduct a Kozel39 evidentiary hearing and
make evidentiary findings reasonably sup­
porting the sanction. Judge Neal failed to
conduct a Kozel hearing prior to excluding
Plaintiffs evidence, a violation of due process
of law. Excluding Plaintiffs evidence post­
trial allowed for the factual findings of guilt
based upon The Florida Bar’s evidence, a
distorted one-sided record. Judge Neal was
later disqualified as referee in SC] 7-307 for
summarily granting prejudicial motions filed
by The Florida Bar ex parted. The ex-parte
orders entered without hearing from Plaintiff
were prejudicial to Plaintiff.
e.

In SCI6-797, Plaintiff Chestnut was denied
his 14th Amendment right to equal protection
under law, when he was treated differently
and less favorably than similarly situated

39 See Kozel v. Ostendorf, 629 So.2d 817,818 (Fla. 1993).
40 Florida Code of Judicial Conduct—provides in pertinent
part:
“A judge shall accord to every person who has a legal
interest in a proceeding, or that person’s lawyer, the
right to be heard according to law. A judge shall not
initiate, permit, or consider ex parte communications,
or consider the other communications made to the judge
outside the presence of the parties concerning a pending
or impending proceeding ...” See Florida Code Jud.
Conduct, Canon 3B(7), formerly Canon 3A(4); see also
Rose v. State, 601 So.2d 1181, 1183 (Fla. 1992)
(“Nothing is more dangerous and destructive of the
impartiality of the judiciary than a one-sided commu­
nication between a judge and a single litigant.”).

App.35a

individuals.41 Plaintiff was found guilty of
Florida Bar Rule violations for allegedly
seeking approval of a 40% contingency fee
contract without presenting the client to the
court for prior court approval of the fee con­
tract.42
i.

First, there , were two white attorneys
(Kim Yozgat and Evan Small) who
worked on the Baker^S case, worked on
the drafting and client signing of the
disputed 40% fee contract, actually
appeared at the fee approval hearing
without the client in the absence of
Plaintiff Chestnut, and then both sued
Plaintiff Chestnut and settled for
employee bonuses resulting' from the
subject 40% attorney fee, yet neither
was ever prosecuted or sanctioned by
The Florida Bar, only Plaintiff Chestnut,
the black attorney.

ii.

Second, a similarly situated white attor­
ney failed to present his client for a
hearing to approve a 40% contingency
attorney fee after settling a wrongful
death case,, and not only was he not
prosecuted or sanctioned by The Florida
Bar (as opposed to Plaintiff Chestnut),

41 See Campbell v. Rainbow City, Ala., 434 F. 3d. 1306,1314
(11th Cir. 2006); see also Griffin Idus., Inc. u. Irvin, 496 F.3d
1189 (11th Cir. 2007).
42 See Rule 4-1.5, Rules Regulating The Florida Bar.
43 Baker v. Chestnut, 2013-CA-3768, tried in the Eighth Judi­
cial Circuit Court, In and For Alachua County, Florida.

App.36a

but the 2d DCA found that a .40% con­
tingency fee contract could be approved
without a fee approval hearing. See
Mahany v. Wrights Healthcare & Rehab.
Ctr., 194 So.3d 399, 402 (Fla. 2d DCA
2016). Thus, the very conduct, in Plain­
tiff Chestnut’s instance was considered
misconduct, and relied upon by the
Supreme Court of Florida under SC16797 to disbar Plaintiff Chestnut in 2019,
yet a similarly situated white attorney
engaging in the same conduct, in 2016
was determined to be allowable and he
was never prosecuted or sanctioned by
The Florida Bar or Supreme Court of
Florida.
f.

In SC18-1614 the Report of Referee by
Judge James Baxley44 recommended, and
the Supreme Court of Florida granted a
permanent disbarment of Plaintiff Chestnut,
again with no Order to Show Cause or evi­
dentiary hearing. However, most notable is
the continued pattern depriving Plaintiff
Chestnut of a fair and impartial tribunal,
throughout discovery and trial the Referee
inhibited or prohibited Plaintiff Chestnut’s
ability for discovery, specifically obstructing
Plaintiffs discovery to prove affirmative
defenses like Fraud against The Florida Bar
and Grievance Committee members, after
complaining witnesses testified to submitting

44 Hon. James R. Baxley, Circuit Court Judge, State of Florida
Fifth Judicial Circuit Court, In and For Lake County.

App.37a

a complaint that did not mirror the charges
from the Grievance Committee. At trial the
Referee admitted as follows:
MR. CHESTNUT: —so I understand the
Court is constructively striking my
affirmative defense of fraud. Is that
correct?
THE COURT: Well, I would—I would prob­
ably say yes, sir.
MR. CHESTNUT: Okay. So just so I’m clear,
you’re striking my affirmative defense.
THE COURT: Yes. I don’t see how that
comes into play, whether you make
ethical violations or not.
MR. CHESTNUT: All right.
THE COURT: Okay?
MR. CHESTNUT: Your Honor, again, just for
the record, I renew on separate basis a
motion for mistrial, Your Honor—
See Trial Transcript, The Florida Bar v.
Christopher Chestnut, SC18-1614, 4/2/2019,
pg. 223, Ins. 16-25.
Judge Baxley also unfairly inhibited Plaintiff
Chestnut’s impeachment of witnesses on prior
inconsistent statements and veracity; yet
entered a guilty finding and recommended
permanent disbarment for alleged trial
misconduct.
g.

Overall, The Florida Bar and Supreme Court
of Florida habitually denied Plaintiff due
process and equal protection in erroneously

App.38a

and inequitably prosecuting and sanctioning
Plaintiff for alleged misconduct occurring in
states other than Florida. Rule 3-4.6 (b)(2),
Rules Regulating The Florida Bar, Choice of
Law provision allows for The Florida Bar
sanction of an attorney licensed in Florida
for out of state misconduct, if that attorney
has been previously found guilty of lawyer
misconduct by the foreign jurisdiction. If
there has been no finding of guilt by the
foreign jurisdiction, The Florida Bar may
prosecute the attorney for the alleged mis­
conduct occurring out of state, but must
apply the foreign jurisdiction’s law / Profes­
sional rules and regulations in determining
guilt of the attorney before sanction.45
Plaintiff was disbarred upon findings of
guilt in foreign jurisdictions where there
was neither finding of guilt nor sanction of
Plaintiff for alleged lawyer misconduct in that
foreign jurisdiction. Yet Plaintiff was errone­
ously prosecuted under Rules Regulating
the Florida Bar, and sanctioned under
Rules Regulating the Florida Bar, with no
application of the foreign jurisdictions law
as required by Rules Regulating the Florida
Bar. Not only did The Florida Bar violate its
own rules in prosecuting Plaintiff Chestnut
under Rules Regulating the Florida Bar,
but no similarly situated white attorney
disbarred in 2019 involving out of state
misconduct, was subject to the sanction of
disbarment in the absence of a foreign
45 id.

App.39a

tribunal finding that lawyer guilty of a crime
or rule violation in that foreign jurisdiction.
See attached, Exhibit E, 2019 Chart on
Florida Bar Disbarments & Revocations.
Cf., SC 19-1373, The Florida Bar v. Scott
Maddox, where Mr. Maddox (a white male
attorney) plead guilty to 3 federal counts
involving public corruption and received a
sanction of 30 days from The Florida Bar; yet,
Plaintiff (a black male) has no criminal con­
victions and was disbarred then permanently
disbarred on rule violations such as: failure
to communicate, lack of diligence, failure to
provide a settlement statement to a vendor,
etc.
h.

Additionally, Plaintiff Chestnut was habi­
tually prosecuted and sanctioned for
alleged conduct, that even if proven to be
true, would have been committed or omitted
by other attorneys in the law firm with
direct supervision over the respective file.46
Yet, neither the lawyers directly assigned to
the file, nor the direct supervisor (Managing

46 Rule 4-5.1(c), Rules Regulating The Florida Bar: A lawyer shall be responsible for another lawyer’s viola­
tion of the Rules of Professional Conduct if:
1.
2.

The lawyer orders specific conduct or, with know­
ledge thereof, ratifies the conduct involved; or
The lawyer is a partner or has comparable managerial
authority in the law firm in which the other lawyer
practices or has direct supervisory authority over the
other lawyer, and knows of the conduct at a time
when its consequences can be avoided or mitigated
by fails to take reasonable remedial action.

App.40a

Attorney) of the assigned attorney were pros­
ecuted or sanctioned in any of these cases;
while Plaintiff Chestnut was disbarred and
permanently disbarred in contravention Rule
4-1.5(c), Rules Regulating The Florida Bar.
Similarly situated white lawyers, who mass
advertise and have multiple-offices have not
been disbarred for allegations of misconduct
committed by subordinate attorneys assigned
directly to the aggrieved claimant, with no
direct supervisory authority over the indi­
vidual assigned attorney. Furthermore,
similarly situated white attorneys who were
disbarred in 2019, were disbarred for alleged
misconduct committed by other attorneys
not under the sanctioned attorney’s direct
supervision, in contrast to Plaintiffs disbar­
ment.
i.

Claims brought under § 1983 are determined
by federal law.47 The purpose of § 1983 is
to: (1) to override certain kinds of state laws
that were inconsistent with state law; (2) to
provide a federal remedy where state law
was inadequate; and, (3) to provide a feder­
al remedy where the state remedy was
available in theory but not in practices.48

31. Plaintiff has litigated and raised the issues
of constitutionality, deprivation of due process and
liberty, and equal protection challenges at the state
court level in the highest court of the state. The
47 See McCeese v. Board of Education, 373 U.S. 668, 674 (1963).
48 Monroe u. Pape, 365 U.S. 167, 173-74 (1961) (emphasis added).

App.41a

alleged state action involves serious constitutional
question and poses immediate and irreparable harm
to Plaintiff, thus the Federal District Court should
intervene and enjoin the disbarment orders.49
32. Plaintiff seeks intervention by the Federal
District Court because he was repeatedly denied due
process rights including but not exclusively, inability
to receive a fair and impartial tribunal, and equal
protection under the law, before the . Supreme Court
of Florida.50
33. Importantly, Plaintiff appreciates the well
settled law that the Federal District Court does not
have jurisdiction for substantive appellate review of
a final state court judgment from the highest state
court; and that is not the gravamen of Plaintiffs
request of this Court. Plaintiff is seeking to enjoin
the enforcement of the final state court judgment, for
due process and equal protection violations, violations
that do afford this court jurisdiction for declaratory
and injunctive relief.5l
34. Equally, Plaintiff is not seeking a collateral
attack on the final state court judgments, and because
this lawsuit is an action for prospective declaratory

49 See Gay Students Organization a/University a/New Hampshire
v. Bonner, 367 F. Supp. 1088 (DC NH 1974).
50 See Gibson v BenyhiU, 411 U.S. 564 (1973) (Plaintiff Optome­
trists sought a prospective injunction to enjoin proceedings against
them pursuant to a § 1983 claim against the Alabama Board of
Optometry that they could not get a fair and impartial hearing.).
51 See, Rhoades v. Penfold, 694 F.2d 1043 (1983).

App.42a

and injunctive relief, res judicata does not apply as a
defense to subject matter jurisdiction.52

C.

Parties to this Action

35. Plaintiff Chestnut is a 39 year-old African
. American Male, admitted by The Florida Bar to practice
law in 2006. He is a graduate of University of
Florida, College of Law and Florida State University.
He was a Community Service Scholar and Student
Government Senate President at Florida State Uni­
versity. He served as the first National Chair of the
National Black Law Students Association at Univer­
sity of Florida College of Law in 2004-2005. Plaintiff
Chestnut opened The Chestnut Firm, LLC in June
2006 in Gainesville, Florida focusing primarily on
Plaintiff Personal Injury, Criminal Defense, and
Wrongful Death Cases. Plaintiff Chestnut was one of
very few African American Personal Injury Attorneys
that engaged in mass media marketing in multiple
jurisdictions. In 2014, Plaintiff Chestnut was co-trial
counsel for one of the largest single event wrongful
death cases in Florida History.53 By 2015 The Chestnut
Firm, LLC had grown into a multi-jurisdictional law
firm with offices in Atlanta, Jacksonville, Gainesville,
and Miami; over 40 staff members, approximately 8
staff attorneys, and more than 450 cases under active
management. Plaintiffs law firm would annually give
away hundreds of turkeys at Thanksgiving in the
community, hundreds of gallons of gas at Christmas,
and provide scholarships for post-secondary education.
52 id.
53 Cynthia Robinson et.al. v. R.JReynolds, $17 million compen­
satory, $23 billion punitive damages.

App.43a

Plaintiff Chestnut is progeny to a fifth-generation
family mortuary serving Gainesville, FL for over 100
years. His Mother was the first black female Mayor
of Gainesville, Florida and the first black to be
elected to the Florida Legislature from Gainesville,
Florida since Reconstruction. His mother, father and
brother have each served multiple terms on the
Alachua County Commission, with over 60 years of
combined career of service in elected office ranging
from school board to the Florida State Legislature.
Plaintiff is also childhood friends with Mr. Andrew
Gillum and was a key campaign advisor for Mr.
Gillum’s (Democrat) 2018 candidacy for Governor of
Florida, an election won by now Gov. DeSantis
(Republican).
36. The Florida Supreme Court is comprised of
seven Justices appointed by the Gov. of Florida.
Three of the sitting Justices were recently appointed
by Gov. DeSantis in 2019. The remaining four Justices
were appointed by Republican Governors. The Florida
Supreme Court oversees The Florida Bar. The Florida
Bar oversees all disciplinary actions against attorneys
licensed in Florida from investigation through the trial
phase, where typically an appointed circuit judge
sitting as referee, administers the trial process and
issues a Report of Referee with Findings of Guilt and
Recommendation for Sanction to the Florida Supreme
Court for declaration of final sanction and disposition
of disciplinary action against a Florida attorney.

App.44a

II. Count 1-42 U.S.C. § 1983 Deprivation of Due
Process & Prospective and Injunctive Relief
A.

Allegations of Facts
37. Plaintiff incorporates hereto paragraphs 1-36.

38- At all times material hereto, Plaintiff Chest­
nut had a property and liberty interest in his license
to practice law issued and by the Supreme Court of
Florida. Plaintiff Chestnut was licensed to practice
law only in the State of Florida.
39. Plaintiff Chestnut is a member of a protected
class under§ 1983 as a black male.
40. Prior to May 3, 2019, Plaintiff Chestnut was
a member of The Florida Bar in good standing, and
was issued a license to practice law upon admission
to The Florida Bar in 2006.
41. Plaintiff Chestnut had a prior disciplinary
sanction of Public Reprimand issued in SC14-1870.54
42. Prior to May 3, 2019, Plaintiff Chestnut had
received no interim sanction or discipline by The
Florida Bar or any bar association for any other state.
43. On May 3, 2019 an order disbarring Plaintiff
Chestnut was entered; no order to show cause as to
why the court should not disbar him was issued or
hearing granted on this disbarment prior to entry of
the order.
44. On August 22, 2019, The Florida Supreme
Court entered an order permanently disbarring Plaintiff
54 Consent Judgment of Guilt to rule violations: 4-1.3 (Diligence),
4-1.4(a) (Informing Clients of Status Representation); 4-1.4(b) (Duty
to Explain Matters to Client).

App.45a

Chestnut; no order to show cause was issued or hearing
granted on this disbarment prior to the entry of the
order.
II. A. i.

Procedural History of SC16-797 &
SC17-307 & SC18-1614

45. The order to Disbar Plaintiff Chestnut relied
upon the Findings of Fact and Recommendation for
Sanction in SC16-797, SC16-1480 and SCI7-307 which
all were consolidated into a common case number of
SC16-797 on or about April 29, 2019.
46. Plaintiff Chestnut filed a Notice of Intent to
Seek Review of Report of Referee in SC 16-797 on or
about June 17, 2017.
47. In SC16-797, Plaintiff Chestnut filed an
appellate Answer Brief (10.17.17) and Reply Brief
were filed (11.23.17), oral hearing was denied, and no
written opinion was ever filed by the Supreme Court
of Florida.
48. In SC 17-307, Plaintiff Chestnut filed a Cross
Notice of Intent to Seek Review of Report of Referee
(6.14.18), The Florida Bar filed an Initial Brief
(6.21.18), on (7.16.18) Plaintiff filed a Motion for
Extension of Time to File Cross Initial/ Answer Brief
on the Merits (7.25.18), the Supreme Court of Florida
denied that motion for extension on (7.25.18), and
the Florida Supreme Court denied Plaintiffs motion
to Supplement the Record on (7.27.19).
49. The Supreme Court of Florida denied Plain­
tiffs Writ of Prohibition (filed 4.3.18) concerning the
Referee’s disqualifying conduct four months after its
filing on August 3, 2018.

App.46a

50. On August 20, 2018, The Clerk of Court for
the Supreme Court of Florida dismissed Plaintiffs
Cross-Notice of Intent to Seek Review of the Referee’s
Report, effectively dismissing his appeal without a
hearing.55 Plaintiff filed a Motion for Reinstatement
(10.8.19), the Supreme Court denied Plaintiffs Motion
for Reinstatement.
II. A. ii. Social Political and Racial Makeup
of the Supreme Court of Florida.
51. Justices Muniz, Lagoa, and Luck were
appointed by Gov. DeSantis (Republican) in 2019.
The remaining four Justices were appointed by previous
Republican Governors). Presently, there are no sitting
Justices appointed by or under a Governor elected as
a Democrat.
52. There are presently no black Justices on the
Supreme Court of Florida for the first time in nearly
four decades.
II. A. iii. The Florida Supreme Court’s Order
to Disbar Plaintiff Chestnut is
Unconstitutional and Invidiously
Discriminatory.
53. On or about‘May 3, 2019, Justices Charles
Canady, Justice Ricky Polston, Justice Jorge Labarga,
Justice C. Alan Lawson, Justice Barbara Lagoa,
Justice Robert Luck, and Justice Carlos Muniz signed
an order to disbar and a separate order to permanently
55 See Fla. R. App. P. § 9.410(2018) (an appellate court may dismiss
a case on its own motion but only after ten-days’ notice warning
of possible dismissal.); see also United Auto. Ins. Co. v. Total
Rehab & Med. Ctr., 870 SO. 2d 866 (Fla. 3d DCA 2004).

App.47a

disbar Plaintiff on August 22, 2019, both entered by
John A. Tomasino (Clerk of The Florida Supreme
Court), all acting in their official capacities.56 See
attached Exhibit A, Order to Disbar &j Order to
Permanently Disbar Christopher Chestnut.
54. The order is invidiously discriminatory be­
cause it,failed to articulate a valid reason or nexus to
the qualifications, conduct, or character of Plaintiff
Chestnut and the imposition of the most severe
sanction of permanent disbarment.57
55. The Supreme Court of Florida failed to issue
Plaintiff an Order to Show Cause as to why the
sanction of disbarment or permanent disbarment
should not be imposed prior to entering the Orders to
Disbar and Permanently Disbar Plaintiff.58
56. The Supreme Court of Florida denied due
process entirely before entering the Orders to Disbar
and Permanently Disbar Plaintiff.
57. The orders are in part based upon the Report
of Referee in SC17-307.

58 The order to Disbar instructs Mr. Chestnut to shut down his
practice within 30 days of thee-filed order, to immediately cease
accepting new cases, and to petition for a re-hearing if desired
but the disbarment would stand notwithstanding.
57 Yick Who v. Hopkins, 118 U.S. 356,363 (1886).
58 The Federal Courts hold: Certainly, the practice of law is not
a matter of the State’s grace. Regardless of how the State’s grant
of permission to engage in this occupation is characterized
(whether the practice of law is a right or a privilege), it is suffi­
cient to say that a person cannot be prevented from practicing
law except for valid reason. See Ex parte Garland, 4 Wall,
333)379 (emphasis added).

App.48a

58. In SC 17-307 the following due process vio­
lations occurred:
a.

The Referee, Judge Ohlman, had no authority
or jurisdiction to issue a Report of Referee
because he was technically disqualified pur­
suant to Fla. R. Jud Admin. § 2.330, prior to
filing the Report of Referee on April 18,
2018, where he failed to respond to a Motion
to Disqualify within the requisite 30 days;
thus, the Report of Referee its findings and
recommendations are null and void and
insufficient as a basis for disbarment or
permanent disbarment^;

b.

The Supreme Court of Florida acknowledged
receipt but never ruled on Plaintiffs Writ of
Prohibition seeking immediate relief from
the unsanctioned actions of Judge Ohlman
in SC 17-307, a deprivation of due process^O;

c.

Plaintiff Chestnut, was not provided an
opportunity to present a defense, as the
trial was stopped on day two of the four-day
trial in violation of due process, nor was
Plaintiff provided an opportunity to conduct
discovery pre-trial;61

59 See Fuster-Escalona v. Wisotsky, 781 So,2d 1063,1065 (Fla.
2000) (When a trial court fails to act in accord with the statutes
and procedurals rules on. a motion to disqualify, an appellate
court will vacate a trial court judgment that flows from that
error.).
60 Id, (“the allegation of judicial prejudice is serious and cannot
be ignored.”).
61

App.49a

d.

All three counts arose from allegations of
lawyer misconduct occurring out of state, in
Georgia and South Carolina respectively. Rule
3-4.6(b)(2)62j Rules Regulating the Florida
Bar, allows The Florida Bar prosecution and
sanction for foreign jurisdiction misconduct,
but the foreign jurisdiction’s law must be
applied in the prosecution of guilt, however,
in the cases sub judice, Plaintiff was errone­
ously prosecuted under Rules Regulating
the Florida Bar.63 Furthermore, Plaintiff was
unequally sanctioned for alleged out of state
misconduct in comparison to his white
counterparts. In these instances, the Supreme
Court of Florida did not follow its rules, and
permanently disbarred Plaintiff who was
never convicted of any crimes or found guilty
of civil or professional rule violations in
foreign jurisdictions, whereas white attorneys
who were disbarred for foreign jurisdiction
misconduct were found guilty of criminal
violations in the foreign jurisdiction under
their foreign jurisdiction’s rules, subject to

62 Rule 3-4.6 (b)(2), Rules Regulating The Florida Bar requires
that: The Florida Bar and the Referee are to apply the law of
the foreign jurisdiction when exercising disciplinary authority
over a Florida Bar member for alleged conduct that occurred in
a jurisdiction other than the State of Florida.
63 See Holland v. Gross, 89 So. 2d 255, 2158 (Fla. 1956)
(misapplication of law to established facts renders the decision
of the trial court made in nonjury setting clearly erroneous).

App.50a

less harsh sanction than Plaintiff for more
severe violations.64
e.

Plaintiff Chestnut’s appeal was dismissed by
the Supreme Court without an Order to
Show Cause or ten-day warning of dismissal
pursuant to Fla. R. App. P. § 9.410.

59. The Supreme Court has also relied upon the
consolidated cases of SC 16-797 in the orders to
disbar Plaintiff Chestnut.
60. In consolidated SC 16-797 the following due
process violations occurred:
a.

The Referee, Judge Neal, violated due process
by excluding Plaintiff Chestnut’s evidence
post-trial, absent the requisite Kozel hearing,
in deprivation of due process, then entered
a finding of guilt.66 Judge Neal also precluded
Plaintiff Chestnut from discovery and evi­
dence in defense of solicitation allegations,
after advising at the Emergency Suspension
Hearing in SCI6-1589 that he would do so.

b.

Additionally, Judge Neal, violated Equal
Protection, in Count II, Baker v. Chestnut,
by finding Plaintiff Chestnut (black attorney)
guilty of an illegal contract and excessive
attorney fee for a straight 40% contingency
fee contract in contrast to the pre-approved
Florida Bar sliding scale contingency fee
contract, because the 40% fee contract was

64 See GJR Invs., Inc. v. County of Escambia, Fla., 132 F.3d
1359, 1367 (11th Cir. 1998).
66 See, SC16-797, Record Index Filings: 55,57,77, and 78.

App.51a

not pre-approved at a hearing with the
client present. However, a similarly situated
white attorney was not prosecuted for a
straight 40% contingency fee agreement
and fee taken without a hearing in Mahany
v. Wright’s Healthcare & Rehab. Ctr., 194
So. 3d 399 (Fia. 2d DCA 2016) (finding a fee
approval after a hearing before a judge was
preferred but not required).
c.

Furthermore, Judge Neal found guilt against
Plaintiff Chestnut, on these charges of
excessive fee and illegal contract, Kim
Yozgat and Evan Small (both white attor­
neys), were the attorneys with day to day
supervision of that case at the time the con­
tract was drafted, consulted with the
Bakers when the contract was signed, and
are the attorneys that drafted and sought
fee approval without the client present for
the hearing; yet were not prosecuted or
found guilty of those acts.

61. In SC18-1614, the following due process vio­
lations occurred:
a.

Plaintiff was prohibited from pre-trial
discovery on his plead Affirmative Defense
of Fraud and denied him opportunity at
trial to present or adduce evidence of Fraud
at trial. On appeal, Plaintiff was denied a
ten-day order to show cause as to why the
appeal should not be dismissed for
untimeliness, after two orders denying
Plaintiffs motions for extension of time for
Plaintiff to retain appellate counsel.

App.52a

62. Plaintiff Chestnut has suffered immediate
and irreparable harm by the taking of his sole law
license and liberty to earn a living by enter of final
orders by the Supreme Court of Florida without the
requisite due process as provided law.
63. As such, the Justices sitting on the Supreme
Court of Florida had a duty to follow the law as
prescribed by the U.S. and Florida Constitution, to
include, but not exclusively, procedural and substantive
due process when seeking to sanction Plaintiff Chestnut
with disbarment and permanent disbarment.
64. Plaintiff Chestnut was entitled to due process
in state bar disciplinary proceedings.66
65. Plaintiff Chestnut was entitled to an oppor­
tunity to be heard and defend himself in the subject
state bar disciplinary proceeding to disbar and
permanently disbar.67
66. The Justices of the Supreme Court of Florida
knew or should have known that the court must
follow due process as required by law in seeking to
disbar and permanently disbar Plaintiff Chestnut.
. 67. The Justices of the Supreme Court of Florida
knew or should have known that it must provide
Plaintiff Chestnut Equal Protection of the law under
§ 1983 the Fourteenth Amendment.
68. On May 3, 2019 and August 22, 2019 the
Justices on the Supreme Court of Florida in their
official capacities breached their duty by taking state
66 See, Zauderer v. Office of Disciplinary Counsel, 471 U.S. 626
(1985).
67 See, The Florida Bar v. Tipler, 8 So.3d 1109, 1118 (Fla. 2009).

App.53a

action violating the due process rights of Plaintiff
Chestnut, by entering an order to disbar and perma­
nently disbar Plaintiff Chestnut absent a hearing,
notice, or sufficient evidentiary basis; respectively.
69. Additionally, the Florida Supreme Court Justices in the official capacities violated Equal Pro­
tection law in their state action depriving Plaintiff
Chestnut of due process and ability to have a fair
trial before a neutral tribunal, unequally applying its
rules and law for the specific purpose of intentionally
discriminating against him in prosecution and sanction,
and in sanctioning him more harshly than similarly
situated white attorneys..
70. As a direct and proximate result of the
illegal state action by the Supreme Court of Florida,
the Justices in their official capacities and the Clerk
of Court, Plaintiff Chestnut has suffered the immediate
and irreparable harm of losing his only license to
practice law; consequently, had to close his law office
losing his means of earning income.
71. As direct and proximate result of the illegal
state action taken by the Justices on the Supreme
Court of Florida in their official capacities, an imme­
diate and irreparable harm has been inflicted upon
the greater community as Plaintiff Chestnut through
his law practice regularly performs philanthropic
contributions to the community, is a mentor to many
other attorneys, and assists clients who otherwise
would not have access to court by accepting cases
that other attorneys decline.
72. Mr. Chestnut is praying only for equitable
relief and no money damages, thus the Federal Dis­
trict Court maintains jurisdiction and this lawsuit is

App.54a

allowed against the State of Florida under the
Eleventh Amendment. ,
WHEREFORE, Plaintiff, CHRISTOPHER
CHESTNUT, pro se, hereby petitions this honorable
Court for a final judgment declaring the illegal
orders to disbar and permanently disbar Plaintiff
Chestnut null and void in violation of due process
and § 1983 and enjoining the Justices on the Supreme
Court of Florida from enforcing the sanction of
disbarment and permanent disbarment, and further
petitions this honorable Court for a trial by jury on
all issues so triable as a matter of law.
Respectfully submitted this 30th day of December,
2019.

By: Is/ Christopher M. Chestnut
Telephone: (855) 374-4448
Facsimile: (855) 377-2667
christopherchestnut@gmail.com

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on the 30th day of
December, 2019, the forgoing was physically served
upon the Clerk of the Court for the United States
District Court for the Northern District of Florida.

By: /s/ Christopher M. Chestnut

